    Audit ofNARA's 

  Drug Testing Program 



OIG Audit Report No. 11-15 



       July 7,2011 

Table of Contents 



Executive Summary ........................... ........................................................... 3 


Background............................ ........................................................................ 5 


Objectives, Scope, Methodology .... .............................................................. 7 


Audit Results ....................... .......................................................................... 9 


Appendix A - Acronyms and Abbreviations ......... ................................... 15 


Appendix B - Management's Response to the Report.. .. ......................... 16 


Appendix C - Report Distribution List. .................................................... 17 

                                                                           OIG Audit Report No. 11-15


 Executive Summary

On September 15, 1986, President Reagan signed Executive Order 12564, establishing a
Drug-Free Federal Workplace. This Order was established to prevent the serious adverse
effects of drug use on a significant portion of the national workforce which result in
billions of dollars of lost productivity. The Order made it a condition of employment for
all Federal employees to refrain from using illegal drugs on or off duty and required
Federal Agencies to establish standards and procedures to test for the use of illegal drugs.

According to an annual survey from the Substance Abuse and Mental Health Services
Administration, the rate of illegal drug use in America rose in 2009 to the highest level in
nearly a decade. Illegal drug use could impair the judgment of employees and cause the
inadvertent disclosure of highly sensitive, national security information. Further, a drug
dependent person in a highly sensitive position could make them a likely target for
foreign intelligence sources.

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of NARA's Drug Testing Program to determine whether
controls were adequate to facilitate an effective drug testing program.

Our audit disclosed that while NARA has established a Drug-Free Workplace Plan, the
controls over the drug testing program were not adequate to ensure the goals of the
program were met and the risks associated with illegal drug use were reduced.
Specifically, we found the following:

     • 	 NARA has not randomly tested its employees for the use of illegal drugs since
         2007;

    • 	 NARA's Plan does not necessitate random drug testing for all positions that have
        access to "truly sensitive information"!;

    • 	 Managers are not adequately trained to identify and address illegal drug use by
        employees nor are employees offered training on drug awareness;

    • 	 Evidence of drug testing results are not maintained; and

    • 	 NARA's Drug-Free Workplace Plan document is not current and needs to be
        updated.




I The Substance Abuse and Mental Health Administration defmes personnel having access to "truly
sensitive information" as individuals with access to national security material that a "reasonable person"
would consider damaging to national interests if compromised.
                                             Page 3
                          National Archives and Records Administration
                                                       OIG Audit Report No. 11 5 



This. report contains five recommendations for addressing our findings. The
recommendations in this report, upon adoption, will improve the effectiveness of
NARA's drug testing program.




                                     Page 4
                  National Archives and Records Administration
                                                              OIG Audit Report No. 11-15


 Background

Recent Trends on Drug Use

A recent survey conducted by the Substance Abuse and Mental Health Administration
revealed that illegal drug use in America is on the rise. About 21.8 million Americans
aged 12 and older reported using illegal drugs in 2009 which is the highest level since the
survey began in 2002 (19.3 million of those users were aged 18 and older). Most drug
users in 2009 were employed. Of the estimated 19.3 million current illegal drug users
aged 18 or older in 2009, 12.9 million (67%) were employed either full or part time. The
survey documented increases in the use of the following illicit drug categories:
prescription drugs, marijuana, MDMA (Ecstasy), and Methamphetamine.

Legal Authority

On September 15, 1986, President Reagan signed Executive Order 12564, establishing a
Drug-Free Federal Workplace. The Order made it a condition of employment for all
Federal employees to refrain from using illegal drugs on or off duty. The Executive
Order recognized that illegal drug use is seriously impairing a portion of the national
work force, resulting in the loss of billions of dollars each year. As the largest employer
in the nation, the Federal government has a compelling proprietary interest in establishing
reasonable conditions of employment. Prohibiting employee drug use is one such
condition. On July 11, 1987, Congress passed legislation affecting implementation of
the Executive Order under Section 503 of the Supplemental Appropriations Act of 1987
(Public Law 100-71). This Act, along with Executive Order 12564, established that the
Department of Health and Human Services would develop guidelines for uniformity
among Federal agency drug testing plans and created centralized oversight of the
Federal Government's drug testing program.

NARA's Drug Free Workplace Plan

Under the provisions of Section 3(a) of Executive Order 12564 and Section 503 of the
Supplemental Appropriations Act of 1987, NARA has established a Drug-Free
Workplace Plan to test for the use of illegal drugs in order to achieve a drug-free Federal
workplace. NAHR (NARA's Employee Relations and Benefits Branch) is responsible
for facilitating NARA's Drug-Free Work Place Plan.

The NARA Plan includes the following types of drug testing: 1) Applicant testing; 2)
Random testing of those employees in TDPs; 3) Reasonable suspicion testing; 4)
Accident or unsafe proactive testing; 5) Voluntary testing; and 6) Testing as part of or as
a follow-up to counseling or rehabilitation.

Approximately 500 positions in NARA have been identified for random testing to
provide a means of ensuring that the performance of these functions is not impaired by
                                        Page 5
                    National Archives and Records Administration
                                                           OIG Audit Report No. 11-15


the use of illegal drugs. These testing designated positions (TDPs) are positions where
use of illegal drugs by employees pose a clear danger to the public health and safety or
national security ifnot executed in a proper manner. The following are NARA's TDPs:

   •   Archivist of the United States;
   •   Motor Vehicle Operators; and
   •   All positions granted special access clearances.

NARA's Plan calls for random drug testing of five percent of employees in TDPs twice
per year.
                              .




                                       Page 6
                    National Archives and Records Administration
                                                                         OIG Audit Report No. 11-15


 Objectives, Scope, Methodology

  The objective of the audit was to detennine whether controls were adequate to facilitate
. an effective drug testing program. Specifically our review focused on whether (1)
  NARA's program was implemented as stipulated in NARA's Drug-Free Workplace Plan
  ("the Plan") and (2) that the Plan was in compliance with existing Federal regulations.
  All audit work was perfonned at Archives n in College Park, MD2.

We examined applicable laws, regulations, and NARA guidance including (a) Executive
Order 12564, Drug Free Federal Workplace; (b) The Substance Abuse and Mental
Health Administration's Mandatory Guidelines for Federal Workplace Drug Testing
Programs; (c) Title 41 of the US Code Chapter 10 section 701- Drug Free Workplace
Requirements for Federal Contractors; (d) Supplemental Appropriations Act of 1987; (e)
NARA's Drug Free Workplace Plan April 17, 1995; (f) NARA notice 95-393, Drug-Free
Workplace Plan; (g) NARA 273, Administrative Procedures for Security Clearances (h)
Executive Order 13526, Classified National Security Information; and (i) The Substance
Abuse and Mental Health Administration's 2010 Guidance for Selection of Testing
Designated Positions.

To accomplish our objectives we did the following:
    • 	 Reviewed NARA's drug testing program against the requirements set forth on
        Executive Order 12564 and the Substance Abuse and Mental Health
        Administration's Mandatory Guidelines for Federal Workplace Drug Testing
        Programs;
    • 	 Evaluated adequacy of those positions detennined to be testing designated
        positions;
    • 	 Evaluated the sufficiency of the drugs for which individuals are tested for at
        NARA;
    • 	 Reviewed the adequacy of the random selection methodology;
    • 	 Evaluated drug awareness training being offered to managers and employees;
    • 	 Reviewed drug testing for contractors; and
    • 	 Held discussions with NARA employees and officials within the Employee
        Relations and benefits branch (NAHR), Security Management Branch (NASS),
        and Acquisitions Services Branch (NAA);

Our audit work was perfonned between August 2010 and February 201 L We conducted
this perfonnance audit in accordance with generally accepted government auditing


2 NARA underwent a Transfonnation effort during the timeframe of this audit. Office names and symbols
have subsequently changed to reflect the reorganization. However, the previous office names and symbols
are used in the body of this report to reflect the historical names of the offices involved throughout the
development ofthe telework program, as well as to remain consistent with the office names used in
applicable NARA policy. Recommendations are addressed using the most current office and management
titles.
                                            Page 7
                         National Archives and Records Administration
                                                           orG Audit Report No. 11-15 



standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. The issuance of this report was delayed due to work on other higher priority
assignments.




                                       Page 8
                    National Archives and Records Administration
                                                             OIG Audit Report No. 11-15


 Audit Results


 1. NARA's drug testing program needs to be improved to 

    ensure a drug-free work environment 

NARA has not effectively managed its Drug Free Workplace Plan ("the Plan") to ensure
a drug free work environment. Specifically our audit disclosed:

    • 	 NARA has not tested its employees randomly for the use of illegal drugs since
        2007;

    • 	 NARA's Plan does not necessitate random drug testing for all positions that have
        access to "truly sensitive information";

    • 	 Managers are not adequately trained to identify and address illegal drug use by
        employees nor are employees offered training on drug awareness;

    • 	 Evidence of drug testing results are not maintained; and

    • 	 NARA' s Plan document is not current and needs to be updated.

These weaknesses exist because management has not given the program the proper
attention needed to effectively manage it. Under Executive Order 12564, Federal
Agencies are required to establish standards and procedures to test for the use of illegal
drugs by employees thereby achieving a drug-free workplace. It is also NARA's policy
that its workplace be free from the illegal use, possession, or distribution of controlled
substances, by the officers and employees ofNARA. Federal employees who use illegal
drugs, on or off duty, tend to be less productive, less reliable, and prone to greater
absenteeism than their fellow employees who do not use illegal drugs. In addition, illegal
drug use could impair the judgment of personnel having access to sensitive information
and cause unauthorized disclosure of highly sensitive, current national security
information. Without an effective program in place, NARA cannot adequately detect and
deter drug use among its workforce.

We interviewed the Chief Human Capital Officer for NAHR and she agreed there are
significant weaknesses with the drug testing program and it had not been given the
appropriate attention. She stated there has been tremendous turnover in the Branch Chief
position since 2007 making it difficult to ensure the drug testing program was given the
attention needed to make it successful. She further stated the Branch Chief administers
the program as part of other assigned duties and she believes additional resources are
needed to ensure the program is successfully implemented. According to the Executive
Order, a comprehensive drug-free workforce approach includes five components-a
policy, supervisor training, employee education, employee assistance, and drug testing.
                                       Page 9
                    National Archives and Records Administration
                                                                           OIG Audit Report No. 11 15 



  NARA's drug testing program requires improvements in each of those five components
  to ensure it is an effective program.

 Random drug testing not performed
 NARA has not administered random drug testing since 2007 3 . As stated above, random
 testing has not been administered due to the high turnover rate in the Branch Chief
 position and the high workload of this position. In addition, the allotted budget has not
 been large enough to accommodate random testing. According to NARA's Plan, random
 testing of five percent of the 500 testing designated positions is to be done twice a year
 (50 individuals); however, this is currently not being done. If random drug testing were
 in place, an estimated 50 tests would have been given per year with an associated cost of
 about $7,500. The purpose of performing random drug testing is to prevent and deter the
 use of illegal drugs in the workplace. Without administering random drug testing, NARA
 is not preventing and deterring drug use amongst its workforce as required by law.

                        Year             Random            Random           Associated
                                        test given        tests that       cost (x$150)
                                                         should have
                                                         been given*
                   2008            0              50          $7,500
                   2009            0              50          $7,500
                   2010            0              50          $7,500
                   Total           0             150         $22,500
                                                              ..
 *Based on testmg 5% of an estlmated 500 testmg deSIgnated pOSItIOns tWIce per year .

. This chart reflects that NARA has not performed 150 random tests over the last three
  years as required by the Plan. The Chief Human Capital Officer stated budget concerns
  have affected their ability to do random testing in the past, but random drug tests would
  be reinstituted during FY201I. NAHR will also start looking into new vendors to
  determine if they can find a cost savings on the amount paid per test.

 Testing Designated Positions (TDPs)
 NARA is not testing all employees that have access to sensitive information. According
 to the Plan, positions designated as TDPs are positions which give employees access to
 classified information and require employees to engage in activities affecting public
 health or safety. When the Plan was put into place, the Archivist determined this included
 the Archivist of the United States, all positions granted special access c1earances 4 , and
 motor vehicle operators. This does not include those with secret and top secret
 clearances who also have access to classified information. Since the Plan was put into
 place, an analysis has not been performed to determine if changes to the TDPs list ().re
 needed.


 3 Since 2007, only applicant drug tests have been given. Applicant drug tests are given to any individual
 tentatively selected for a testing designated position prior to beginning employment with NARA
 4 Special access clearances are clearances over and above the normal national security access clearances of
 Confidential, Secret, and Top Secret.
                                             Page 10
                          National Archives and Records Administration
                                                             OIG Audit Report No. 11-15 




The SAMHSA has issued guidance to Executive Branch Agencies for selection of testing
designated positions. Personnel having access to "truly sensitive infonnation" should be
included as a TDP. This guidance defines those having access to "truly sensitive
information" as personnel who hold secret and higher clearances. In addition, Executive
Order 13526 Classified National Security Information describes national security
information as classified as confidential, secret, or top secret. Individuals with a
confidential, secret, and top secret clearances could have access to classified documents
that could cause damage to national security if released. Furthennore, there are
employees within NARA holding secret and top secret clearances whose positions give
them access to classified infonnation. Given their access to classified infonnation, those
employees should be included in the TDP popUlation.

Drug abuse by employees in a sensitive position could impair their capability to exercise
the care, discretion, and judgment required in making decisions about safeguarding of
classified infonnation and could result in the disclosure of this information.

Given the current environment and the need to protect sensitive and proprietary
information, it is increasingly critical that NARA include the appropriate positions in its
random drug testing popUlation.

Drug awareness training not effective
Managers are not trained to identify, address and report illegal drug use by employees nor
are employees offered training on drug education. NARA's Plan requires the HR
Services Division to implement supervisory training, and develop a training package to
ensure all employees and supervisors are fully infonned of NARA's Plan. Furthennore,
Executive Order 12564 requires agencies to develop supervisory training to assist in
identifying and addressing illegal drug use by agency employees. Clear, consistent
employee drug education can create an infonned workforce and may significantly reduce
drug abuse problems in the workplace.

There are two supervisory training courses offered by NARA; however, neither one of
those training courses assists supervisors in recognizing and addressing illegal drug use
by agency employees, nor does it include all elements required under NARA's Plan.
Supervisors have a key role in establishing and monitoring a drug-free workplace and
according to NARA's Plan, supervisory training should include the following elements:

          • 	 Overall agency policy;
          • 	 The prevalence of various employee problems with respect to drugs and
              alcohol;
          • 	 The Employee Assistance Program (EAP) approach to handling
              problems including the supervisor's role and relationship to EAP;
          • 	 How to recognize employees with possible problems;
          • 	 Documentation of employee performance or behavior;
          • 	 Skills in confronting employees with possible problems;

                                       Page 11
                    National Archives and Records Administration
                                                            OIG Audit Report No. 11-15 



           • 	 Agency procedures for referring employees to EAP;
           • 	 Disciplinary action, and removals from sensitive positions as required by
               Section 5(c) of the Executive Order;
           • 	 Reintegration of employees into the workforce; and
           • 	 Written materials which the supervisor can use at the work site.


During the course of our review we identified two training courses on NARA's Intranet
designed for employees on awareness of drug use and the effects. However, neither
course is active, nor are employees made aware of them. During audit fieldwork, we
informed NAHR of this condition. In response NAHR indicated they will reactivate the
training and institute a more robust drug training program for supervisors.

New employee applicant drug testing results and documentation are not retained
During the course of the audit, we were not able to obtain any evidence that employees
were properly notified of scheduled applicant drug testing nor were we able to obtain
evidence that employees successfully passed applicant drug testing. We were told these
items were not traditionally retained because no one saw the need to keep the
information.

According to the SAMHSA, Federal agencies should establish a recordkeeping system to
maintain the records of the agency's Drug-Free Workplace Program consistent with the
agency's Privacy Act System of Records and with all applicable Federal laws, rules and
regulations regarding confidentiality of records including the Privacy Act (5 U.S.c.
§552a). The recordkeeping system should capture sufficient documents to meet the
operational and statistical needs of this order, and include:

       1. 	 Notices of verified positive test results referred by the Medical Review
            Officer;
       2. 	 Written materials justifying reasonable suspicion testing or evidence that an
            individual may have altered or tampered with a specimen;
       3. 	 Anonymous statistical reports; and
       4. 	 Other documents the Drug Program Coordinator, Medical Review Officer, or
            EAP Administrator deems necessary for efficient compliance with this order.

In addition, Government Accountability Office's standards for internal control require
that all transactions and other significant events are clearly documented, and the
documentation should be readily available for examination. All documentation and
records should be properly managed and maintained.




                                       Page 12
                    National Archives and Records Administration
                                                             OIG Audit Report No. 11-15 



Drug testing program plan document needs to be updated

NARA's Drug Free Workplace Plan document has not been updated since 1998 and
needs to be updated to reflect current practice and to be in compliance with SAMSHA
guidance. The Drug Free Workplace Plan document sets forth objectives, policies,
procedures, and implementation guidelines, to achieve a drug-free Federal workplace,
consistent with Executive Order 12564.




The SAMHSA issues guidance to agencies periodically on the guidelines to be
implemented for Federal workplace drug testing programs. SAMHSA has also
developed a model Drug Free Workplace Plan for agencies to reference when creating,
reviewing and updating their Plans. Since the development of this plan, there have been
changes in language and implementation practice in the following areas: references and
authorities, definitions, range of consequences, reasonable suspicion testing, applicant
testing, and privacy assured. In addition, SAMHSA's guidance for the selection of
testing designated positions was updated in 1999 and 2010.

In order to ensure compliance with any guidance that is issued and to ensure the Plan
reflects current practices, NARA should periodically review the Plan. A drug-free
program cannot be effective if the governing plan document is outdated.

Recommendations The Chief Human Capital Officer should take the following actions.

   (1) Re-institute random drug testing for those employees determined to be in a testing
       designated position.

   (2) Amend NARA TDP's to ensure compliance with the SAMHSA's Interagency
       Coordinating Group Executive Committee "Guidelines for the Selection of
       Testing Designated Positions" and establish a mechanism to periodically review
       and update TDPs as necessary.

   (3) Develop a training course for all supervisors that will aide them in recognizing
       and addressing illegal drug use by agency employees. This training should be
       mandatory for all supervisors. Also evaluate the current drug awareness training
       for employees on NARA's intranet and determine if it is acceptable training for
       NARA employees. If it is, determined to be acceptable reactivate the training. If
       it is not acceptable identify and offer another suitable training alternative.

   (4) Develop a retention plan for all drug testing related documentation consistent with
       the guidance issued by SAMHSA.


                                       Page 13
                    National Archives and Records Administration
                                                           OIG Audit Report No. 11-15 



   (5) Review NARA's Drug Free Workplace Plan and update it as necessary. In
       addition, a plan for periodic reviews and updates ofthe Plan document should be
       developed.

Management Response

Management concurred with each of the recommendations.




                                      Page 14
                   National Archives and Records Administration
                                                   OIG Audit Report No. 11-15


Appendix A - Acronyms and Abbreviations

NARA     National Archives and Records Administration
OIG      Office of Inspector General
TDP      Testing Designated Position
NAHR     Employee Relations and Benefits Branch
NASS     Security Management Branch
NAA      Acquisitions Services Branch
HR       Human Resources
SAMHSA   Substance Abuse and Mental Health Services Administration
NSDUH    National Survey on Drug Use and Health
EAP      Employee Assistance Program




                                 Page 15
              National Archives and Records Administration
                                                                                     OIO Audit Report No. 11-15


Appendix B - Management's Response to the Report




         ~

         ,NATIONAL 

         ARCHIVES 




             Date:               JUN 28 20ll 

             To:                Paul Brachfeld, Inspector General 

             From:              David S. Ferriera, Archivist ofthe United States 

             Subject:           Draft ReportOIG 11-13, AuditofNARA's Drug Testing Program 





             Thank you for the opportunity to comment on this draft report We appreciate the willingness of
             the auditor to meet and discuss corrections IIIld changes to some of the language in the report.
             This report now includes five recommendations. We concur with all five recommendations and
             have already begun working to contain some of the problems noted in the draft report.

             If you have questions about these comments, please contact Mary Drak at mary,drak@nara.goY
             or by phone at 301-837-1668 .



     ~~
     .
             David S. Ferriera 

             Archivist of the United States 





     ;JqIO;JAL ARCHIVES "lid
     RECO~D,       ADMINISTRATION

         MOl ADELPHI ROAD
     COL lEG ~ PARK. MD 20740·6(Kll
             www,archives.gov




                                           Page 16
                        National Archives and Records Administration
                                                        OIG Audit Report No. 11-15


Appendix C - Report Distribution List

Archivist of the United States (N)
Deputy Archivist of the United States (ND)
Chief Operating Officer (C)
Chief Human Capital Officer (H)
Management Control Liaison, Performance and Accountability (CP)




                                      Page 17
                   National Archives and Records Administration
